Inspection Report No. OIG-INS-09-00-06: Accounting and Reporting Systems in Chicago Regional Office
Inspection Report No. OIG-INS-09-00-06 Accounting and Reporting Systems in Chicago Regional Office
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
July 6, 2000
To: Elizabeth Kinney
Regional Director, Region 13
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-09-00-06: Accounting and
Reporting Systems in Chicago Regional Office
This inspection was conducted in conjunction with our audit of the
National Labor Relations Board's Fiscal Year 1999 accounting and reporting
systems. We selected four Regional Offices, including Region 13, the
Chicago Regional Office (Chicago), on a judgmental basis. The objective
was to review functions that could affect the Agency's ability to prepare
audited financial statements including financial management, backpay, time
and attendance (T&A), and capitalized and sensitive property.
We did not identify anything adversely impacting the Agency's ability
to prepare audited financial statements based upon Chicago's financial
management. We also determined that procedures provided reasonable
assurance that the management of backpay meets Agency objectives.
We did, however, identify several reportable issues. The official
inventory of computer equipment and one maintained by Chicago were not in
agreement, and neither inventory accurately identified what equipment was
assigned to Chicago or the location of the equipment within the office.
Chicago did not use leave request forms to document leave usage, and
advance sick leave was not granted in accordance with Agency policy. All
compensatory time was not recorded in the Agency's payroll system, and
compensatory time recorded in the payroll system was frequently not
approved or did not agree with supporting records. Bi-weekly T&A
reports were not initialed by the employee, timekeeper, or supervisor.
Scope
We interviewed responsible personnel to identify procedures relating to
financial management, the collection and distribution of backpay, controls
over capitalized and sensitive equipment, and the administration of
T&A practices. We reviewed applicable documentary evidence and
performed a physical inventory of capitalized and sensitive property,
including all computer equipment.
Capitalized and Sensitive Property
General Accounting Office Standards for Internal Control in the
Federal Government, updated in November 1999, call for accurate and
timely recording of transactions and events. Chicago had no capitalized
property. Sensitive property included computer equipment, non-capitalized
photocopy equipment, one television/video cassette recorder combination
and one mail meter. We found that records, in general, accurately
reflected non-computer related sensitive property.
The official computer inventory and one maintained by Chicago were not
in agreement and neither accurately identified what computer equipment was
assigned to Chicago or location of the equipment within the office. Both
inventories included central processing units, monitors, and printers.
Both identified the name of the employee assigned the equipment, a
description of the equipment, serial number, and in most instances, a bar
code number for each item. We found:
6 items were included on the official inventory but were not on
Chicago's inventory;
73 items were included on Chicago's inventory but were not on the
official inventory;
20 items had an incorrect serial number but, generally, the
description, location, and bar code number, when used, were in
agreement;
8 items observed during our physical inventory were not on Chicago's
inventory; and
6 items on Chicago's inventory were not found.
The computer maintenance contractor did not maintain records
identifying computer equipment sent for repairs in cases when the
equipment was to be returned, as opposed to replaced. Contractor
representatives agreed to develop procedures to properly inventory
computer equipment.
Maintaining Time and Attendance Records
General Accounting Office Policy and Procedures Manual for Guidance
of Federal Agencies, Title 6 - Pay, Leave, and Allowances (Title 6),
dated March 22, 1996, states that documents supporting T&A should be
completed and maintained. Examples of such documents include those for
establishing (1) work schedules, (2) flexiplace arrangements, (3) leave,
(4) overtime, (5) compensatory time, and (6) credit hours.
Work Schedules
Chicago maintained a work schedule for professional and clerical
employees. This schedule did not document supervisory approval. Additional
documentation to support supervisory approval to work either a compressed
or flexible work schedule existed for all but one of 15 employees working
a compressed or flex-time schedule.
We received inconsistent information regarding breaks and lunch
periods, but the time allowed appeared to routinely be more than 30
minutes. 5 U.S.C. § 6101 established a 40-hour work week for Federal
employees. The Office of Personnel Management reaffirmed this in guidance
which stated that agencies are not allowed to routinely permit employees
to work less than 80 hours in a pay period, and hour long meal breaks,
half of which is in a pay status are not authorized.
Flexiplace Arrangements
No Chicago employees participated in the work-at-home program.
Leave Slips
Chicago did not use the Standard Form 71 (SF-71) to document sick or
annual leave usage. In a May 18, 2000, memorandum, the Regional Director
established an office policy requiring the use of SF-71s to document sick
and annual leave usage.
Advance Sick Leave
Agency policy requires that an employee submit medical certification
when requesting advance sick leave. The Regional Director can approve up
to 4 days. For 5 or more days, the Regional Director must submit a
memorandum to the Division head justifying the advance. The Division head
is to respond either approving or disapproving the request.
We identified 3 employees with advance sick leave balances and reviewed
16 related transactions to determine whether documentary evidence was
maintained and approval was granted in accordance with Agency policy. Two
employees were advanced sick leave of 5 or more days. Only 5 of the 16
transactions were supported by a medical certificate. The advance sick
leave of 5 days or more was not supported by a memorandum to, or approval
by, the Division head.
Advance Annual Leave
Annual leave may not be advanced in excess of what the employee could
accrue by the end of the pay year. We reviewed all advance annual leave
balances and determined that leave was not advanced in excess of the
amount allowed.
Other Time
Chicago provided formal compensatory time for elections and hearings.
We reviewed 50 formal compensatory time transactions. The amount recorded
did not agree with supporting documentation for 20 transactions, and 12
transactions were not approved consistent with Chicago's established
procedures.
Informal compensatory time, which had to be used within two weeks of
earning it, was provided for other contacts with the public occurring in
excess of the normal tour of duty. This time was not properly approved nor
recorded in the payroll system. The informal compensatory time system
resulted from an agreement approved by the Division of
Operations-Management and regional office management to remedy a
grievance.
Credit hours and overtime were not used.
Review and Approval of T&A Reports
Title 6 states that review and approval of T&A reports should be
made by the official, normally the immediate supervisor, most
knowledgeable of the time worked and absence of the employee. Since at
least March 1992 when Administrative Policy Circular (APC) 92-4 was
issued, Agency policy requires employees, timekeepers, and supervisors to
initial hard copy T&A reports. The policy was reaffirmed in APC 98-01
that was issued in response to an OIG finding that employees, timekeepers,
and supervisors frequently did not initial T&A reports as required.
As a matter of practice, T&A reports were not initialed by the
employee, timekeeper, or supervisor. In a memorandum dated May 18, 2000,
the Regional Director instructed staff that T&A reports must be
initialed by the employee, timekeeper, and supervisor.
This review was done in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.
cc: Richard A. Siegel